No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES

JESSIE HARRIS
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Jessie Harris, pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), asks
leave to file the accompanying Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit without prepayment of costs and to
proceed in forma pauperis. Petitioner was represented by counsel appointed
under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United
States District Court for the Northern District of Texas and on appeal to the
United States Court of Appeals for the Fifth Circuit.
Respectfully submitted this the 25th day of November, 2020.
/s/ A. Clay Graham
A. Clay Graham
Counsel of Record
TBN: 24064140
LAW OFFICE OF A. CLAY GRAHAM
4500 Airport Freeway
Fort Worth, Texas 76117
(817) 334-0081
cg@lccglaw.com
Attorney for Petitioner

